CERTIFICATE OF COMPLIANCE
Case No. 19-1212
Caption: Wolf v. Innovation Law Lab
As required by Supreme Court Rule 33.l(h),
I certify that the document contains 7,119 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 22, 2021

Howard Daniels
Record Press, Inc.

Sworn to before me on
January 22, 2021
ALESSANDRA KANE
Notary Public, State of New York
No.01K.A6340521
Qualified in Richmond County
24

